CERTIFICATE OF SERVICE
NO. 20-649
Level the Playing Field, et al.
Petitioners,
v.
Federal Election Commission
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
INDEPENDENT VOTER PROJECT, ET AL. AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONERS, by
mailing three (3) true and correct copies of the same by USPS Priority mail, postage prepaid for
delivery to the following addresses:
Alexandra Anastasia Ekaterina Shapiro
Shapiro Arato Bach LLP
500 Fifth Avenue
40th Floor
New York, NY 10110
(212) 257-4881
ashapiro@shapiroarato.com
Counsel for Level the Playing Field, et al.

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for Federal Election Commission

Lucas DeDeus

December 10, 2020
SCP Tracking: Briggs-99 East "C" Street-Cover Cream

